SEMIANNUAL
REPORT TO CONGRESS
OCTOBER 1, 2013 TO MARCH 31, 2014
EXPORT-IMPORT BANK OF THE UNITED STATES (Ex-Im Bank) is the official export credit
agency of the United States. Ex-Im Bank supports the financing of U.S. goods and services in
international markets, turning export opportunities into actual sales that help U.S. companies of
all sizes to create and maintain jobs in the United States.


Ex-Im Bank assumes the credit and country risks that the private sector is unable or unwilling
to accept. Ex-Im Bank also helps U.S. exporters remain competitive by countering the export
financing provided by foreign governments on behalf of foreign companies. More than 80
percent of Ex-Im Bank’s transactions have been made available for the direct benefit of U.S. small
businesses in recent years.


More information about Ex-Im Bank is at www.exim.gov.


THE OFFICE OF INSPECTOR GENERAL (OIG), an independent office within Ex-Im Bank, was
statutorily created in 2002 and organized in 2007. The mission of Ex-Im Bank OIG is to conduct
and supervise audits, investigations, inspections, and evaluations related to agency programs and
operations; provide leadership and coordination as well as recommend policies that will promote
economy, efficiency, and effectiveness in such programs and operations; and prevent and detect
fraud, waste, abuse, and mismanagement.


The OIG is dedicated to acting as an agent of positive change to help Ex-Im Bank improve its
efficiency and effectiveness. It keeps Ex-Im Bank’s Chairman and President and Congress fully
informed about problems and deficiencies along with any positive developments relating to Ex-
Im Bank administration and operations.


More information about the OIG including reports of audits, inspections, and evaluations is at
www.exim.gov/oig.


Information about inspectors general in the U.S. government is at www.ignet.gov.
Contents

 3   From the Inspector General


 5   Highlights


 9   Office of Inspector General management initiatives


11   Government Accountability Office

13   Office of Audits

14   Summary of audit activities

14   Reports issued

19   Ongoing audits

23   Office of Inspections and Evaluations

24   Ongoing inspection assignments

25   Other ongoing assignments

29   Office of Investigations

30   Summary of accomplishments

31   Summary of investigations

31   Summary of investigative results

32   Investigations

36   Other investigative results

38   Hotline activity

41   Appendix A Recommendations from prior reporting periods

43   Appendix B Peer review reporting

45   Appendix C Inspector General Act Reporting Requirements




                                                               Office of Inspector General | Export-Import Bank of the United States   1
From the Inspector General
We are pleased to report our last six months’ work. Our office continues to enhance the
viability, soundness, efficiency, and effectiveness of the Export-Import Bank of the United
States (Ex-Im Bank). Ex-Im Bank has experienced significant asset growth over the past
several years, specifically through its Direct Loan Program. The challenging economic
environment, changes in the composition of its product portfolio, and Congressional
interest led us to focus on the growth in the Direct Loan program as represented by the
audit report entitled Export-Import Bank’s Content Policy: Opportunities Exist to Improve
Controls and Address the Impact of Voluntary Reporting (OIG-AR-14-01, December
11, 2013). This audit found that Ex-Im Bank has limited assurance in its short-term and
medium-term programs that (1) content requirements are met, (2) it finances only eligible
exports, and (3) financing activities effectively achieve the agency’s mission of maintaining
or increasing U.S. employment.


Also, the OIG supervised and concluded the oversight of Ex-Im Bank’s Financial Statement
audit performed by an external accounting firm. The independent public accountant
issued an unqualified opinion on Ex-Im Bank’s financial statements. However, this audit
identified reporting deficiencies totaling approximately $610 million related to Ex-Im Bank’s
internal controls over financial reporting. This total includes approximately $112 million in
corrections due to inaccurate subsidy re-estimates and an understatement of 2012 working
capital guarantee exposure of approximately $495 million.


In addition, our office continued its focus on investigating fraud related to Ex-Im Bank
transactions and strengthening our ability to investigate and prosecute export fraud
globally. Specifically, the OIG (1) extradited a fugitive from Argentina who participated in
a number of Ex-Im Bank fraudulent transactions and (2) obtained approximately $42 million
in criminal restitution, forfeiture, and fines as the result of three criminal judgments arising
out of investigations conducted by the OIG. The OIG also conducted significant employee
integrity investigations that resulted in two Ex-Im Bank employees being proposed
for dismissal. Furthermore, the OIG continued to enhance its investigative capabilities,
investigative support, and outreach efforts by conducting several training and seminar
sessions with commercial banks that participate in export finance activities. None of these
accomplishments would be possible without the hard work, professionalism, and dedication
of our excellent staff.




OSVALDO L. GRATACÓS




                                                                   Office of Inspector General | Export-Import Bank of the United States   3
Highlights
The Office of Audits completed three audits during the six months ending on
March 31, 2014.

Export-Import Bank’s Content Policy: Opportunities Exist to Improve Controls
and Address the Impact of Voluntary Reporting
(OIG-AR-14-01, December 11, 2013)

       Given the growth of Ex-Im Bank’s overall portfolio since fiscal year 2008
       (approximate 94%) and Ex-Im Bank’s mandate to create jobs in the U.S., we
       reviewed Ex-Im Bank’s ability to determine the domestic content of the goods and
                                                                                                              At a glance
       services it finances. Generally, the audit found that due to the lack of verification                  • Domestic content policy audit
       efforts and concerns regarding exporter certifications of content, Ex-Im Bank has                      • Financial statement audit
       limited assurance in its short-term and medium-term programs that (1) content                            for fiscal year 2013
       requirements are met, (2) it finances only eligible exports, and (3) financing                         • FISMA audit

       activities effectively achieve the agency’s mission of maintaining or increasing U.S.                  • Criminal judgments

       employment.


       This audit recommended that Ex-Im Bank should (1) implement procedures to verify
       exporter self-certifications for a representative sample of transactions each fiscal
       year; (2) resolve with the Board of Directors the outstanding requirement to provide
       annual reports based on content reports and foreign content review procedures; and
       (3) establish mechanisms to obtain specific, measurable, and reliable data to analyze
       the impact of any content-related procedural changes approved by the Board of
       Directors by the end of 2013. Management concurred with the recommendations.

Export-Import Bank of the United States Fiscal Year 2013 Financial Statements
(OIG-AR-14-02, December 13, 2013), and
Fiscal Year 2013 Financial Statement Audit—Management Letter
(OIG-AR-14-04, March 21, 2014)

       This audit identified deficiencies involving Ex-Im Bank’s internal control over financial
       reporting for the period from October 1, 2012 through September 30, 2013. Some
       of these deficiencies, as stated in Fiscal Year 2013 Financial Statement Audit—
       Management Letter (OIG-AR-14-04, March 21, 2014), were as follows:
   •   Incorrect working capital guarantee maturity dates resulted in exclusions of some
       working capital guarantees from Ex-Im Bank’s 2012 portfolio. This resulted in an
       understatement of 2012 working capital guarantees exposure and the allowance for
       working capital guarantees of approximately $495 million and $2.9 million, respectively.
   •   The fiscal year 2013 subsidy re-estimate journal entry was incorrectly recorded—the
       guarantee provision was incorrectly recorded as insurance provision. The subsidies for
       guarantee and insurance transactions were correctly calculated. However, the subsidies
       for the cohort year 2012 for insurance and guarantee transactions were not included in




                                                                     Office of Inspector General | Export-Import Bank of the United States      5
                 Highlights



                                            the subsidy re-estimate journal entry and therefore were not recorded. Subsequently,
                                            the downward and upward subsidies were understated by approximately $80 and
                                            $10 million, respectively at September 30, 2013. Ineffective review of the journal
                                            entries prior to posting could potentially cause an incorrect subsidy re-estimate journal
                                            entry and therefore an inaccurate subsidy recorded in the financial statements.

                                    Fiscal Year 2013 Information Security Program and Practices Audit
                                    (OIG-AR-14-03, March 26, 2014)

                                            The independent public auditor determined that, overall, Ex-Im Bank continues
                                            to improve and strengthen its information security program and is addressing
                                            the challenges in each of the areas that the Office of Management and Budget
                                            identified for the fiscal year 2013 Federal Information Security Management Act
                                            of 2002 (FISMA) review. However, Ex-Im Bank is not compliant with all FISMA
                                            requirements. The report contains six recommendations for corrective action.
                                            Management concurred with the recommendations and we consider management’s
                                            proposed actions to be responsive.


                                    The Office of Investigations accomplished the following actions:
                                        •   Obtained three criminal judgments resulting in 135 months’ imprisonment, 108 months’
                                            probation, and approximately $42 million in criminal restitution, forfeiture, and special
                                            assessments;
                                        •   Referred significant findings from employee integrity investigations to Ex-Im Bank
                                            management resulting in two Ex-Im Bank employees being proposed for dismissal;
                                        •   Obtained one plea agreement entered in court by a subject pursuant to ongoing

                                            investigative matters;

                                        •   Provided 38 reports of investigative information to Ex-Im Bank Office of General
                                            Counsel concerning potential funds at risk to support enhanced due diligence efforts
                                            in approving, processing, and monitoring export credit loan guarantees and insurance
                                            policies, and;
                                        •   Referred 11 investigative matters to the Department of Justice for prosecutive decision.




6   Office of Inspector General | Export-Import Bank of the United States
Office of Inspector General management initiatives
New staff
The OIG is pleased to announce that Michael McCarthy joined the OIG as the Legal Counsel
to the Inspector General. Mr. McCarthy has worked in all three branches of government.
Most recently, he was a senior counsel with the U.S. Department of the Treasury and
previously worked at the Administrative Conference of the United States and Department
of Justice. On Capitol Hill, Mike served as general counsel to the House Committee on
Oversight and Government Reform and as staff director of that panel’s Subcommittee on
Government Management.


International and domestic collaboration
The OIG participates in meetings with the Berne Union, the worldwide organization of
export credit, insurance, and investment agencies. These meetings allow the OIG to discuss
areas of interest in the export credit field and to benchmark Ex-Im Bank’s practices with
other export credit agencies.


Since the majority of OIG investigations and inspections are focused on international
transactions, the OIG continually seeks to partner with international organizations to
collaborate and exchange ideas and information on how to work together in identifying,
preventing, and investigating fraud.


Further, during the reporting period, OIG staff participated in panels and presentations with
the Florida International Bankers Association and the International Factoring Association.


Council of Inspectors General on Integrity and Efficiency
The OIG participates in the Professional Development Committee of the Council of Inspectors
General on Integrity and Efficiency (CIGIE). The committee provides educational opportunities,
supports the development of personnel, provides opportunities for training and development
of OIG staff, and establishes training to meet continuing education requirements. The OIG
Office of Inspections and Evaluations participates in the CIGIE Inspection and Evaluation
Committee, which leads the development of protocols for reviewing management issues that
cut across departments and agencies, promotes the use of advanced program-evaluation
techniques, and fosters awareness of evaluation and inspection practices in OIGs.


Review of legislation and regulations
Pursuant to section 4(a)(2) of the Inspector General Act of 1978, as amended, the OIG
reviews proposed and existing legislation and regulations related to Ex-Im Bank’s programs
and operations. During the reporting period, the OIG worked through the CIGIE Legislation
Committee to monitor and comment on proposed legislation on data transparency, computer
matching, and information security.



                                                                  Office of Inspector General | Export-Import Bank of the United States   9
Government Accountability Office
The Inspector General (IG) Act states that each IG shall give particular regard to the
activities of the Comptroller General of the United States with a view toward avoiding
duplication and ensuring effective coordination and cooperation.


No Government Accountability Office reports were issued during this reporting period that
addressed Ex-Im Bank procedures or mission. The OIG has shared information with GAO as
part of ongoing reviews of Ex-Im Bank that GAO is currently conducting.




                                                                 Office of Inspector General | Export-Import Bank of the United States   11
Office of Audits

                  Office of Audits



                                     Summary of Audit Activities
                                     The Office of Audits (OA) conducts and oversees independent and objective audits relating
                                     to Ex-Im Bank programs to improve Ex-Im Bank operations. All OIG audits are performed
                                     in accordance with generally accepted government auditing standards promulgated by the
                                     Comptroller General of the United States. Furthermore, OA refers irregularities and other
                                     suspicious conduct detected during audits to the Office of Investigations for investigative
                                     consideration.


                                     OA completed three audits during the six months ended March 31, 2014:
                                         •   Export-Import Bank’s Content Policy: Opportunities Exist to Improve Controls and
                                             Address the Impact of Voluntary Reporting
                                         •   Audit of Export-Import Bank of the United States Fiscal Year 2013 Financial Statements
                                         •   Fiscal Year 2013 Information Security Program and Practices Audit


                                     At the end of the reporting period, OA had two audits in progress:
                                         •   Audit of Export-Import Bank’s Controls over Sponsored Travel
                                         •   Audit of Export-Import Bank’s Compliance with the Improper Payments Information
                                             Act of 2002 for Fiscal Year 2012


                                     Reports Issued
                                     Export-Import Bank’s Content Policy: Opportunities Exist to Improve Controls and
                                     Address the Impact of Voluntary Reporting
                                     (OIG-AR-14-01, December 11, 2013)
                                     www.exim.gov/oig/upload/OIG-Final-Report-Audit-of-Ex-Im-Bank-s-Content-Policy-12-11-13.pdf

                                     Ex-Im Bank provides competitive export financing to help U.S. businesses sell their goods
                                     and services overseas. In doing so, Ex-Im Bank contributes to the employment of U.S.
                                     workers. Ex-Im Bank’s content policy connects its financing activities to U.S. jobs by limiting
                                     the amount of foreign content (foreign labor, materials, and other production costs) that
                                     can benefit from Ex-Im Bank financing. Ex-Im Bank relies on U.S. content as a proxy to
                                     evidence support for U.S. jobs. In fiscal year (FY) 2012, Ex-Im Bank reported supporting an
                                     estimated 255,000 U.S. jobs. Over the last five years, Ex-Im Bank has reported supporting
                                     more than one million U.S. jobs. The OIG initiated an audit to evaluate Ex-Im Bank’s
                                     implementation of its content policy and assess its procedures for determining the U.S.
                                     and foreign content of exported goods and services.


                                     Ex-Im Bank’s content requirements ensure U.S. jobs benefit from Ex-Im Bank programs.
                                     Moreover, exported goods and services must meet content requirements to be eligible for
                                     Ex-Im Bank financing. However, the OIG found that only long-term transactions are subject
                                     to procedures that could identify content-related discrepancies. For all other transactions,
                                     Ex-Im Bank largely relies on exporter self-certifications and criminal penalty warnings to
                                     ensure content requirements are met and to deter exporters from making false statements.



14   Office of Inspector General | Export-Import Bank of the United States
Several Ex-Im Bank divisions have opportunities to review content-related information;
however, none are responsible for implementing control activities such as verifying exporter
certifications of content. Furthermore, the Government Accountability Office (GAO)
reported that Ex-Im Bank lacks a sound basis for workforce planning and for determining
when such additional control activities might be needed to manage operational risks.


GAO “Standards for Internal Control in the Federal Government” states that controls
should provide reasonable assurance that the objectives of the agency are being achieved.
Although compliance with Ex-Im Bank’s content requirements is not indicative of a successful
                                                                                                            Because Ex-Im Bank made
or failed business transaction, it is one of the basic requirements for doing business with
                                                                                                            submission of content reports
Ex-Im Bank. Due to the lack of verification efforts and because the OIG identified concerns
                                                                                                            voluntary, it has not received
regarding exporter certifications of content, Ex-Im Bank has limited assurance that (1)                     any statistically valid data
content requirements are met, (2) it finances only eligible exports, and (3) financing activities           to date.
effectively achieve the agency’s mission of maintaining or increasing U.S. employment.


Ex-Im Bank revised its content policy in 2001. In exchange for allowing flexibility in
content calculations, Ex-Im Bank requested exporters to submit detailed content reports.
Such information would allow Ex-Im Bank, Congress, and the Department of Labor to
analyze the impact of the policy changes, develop specific content trends, and conduct
follow-up analyses. However, because Ex-Im Bank made submission of content reports
voluntary, it has not received any statistically valid data to date. Therefore, Ex-Im Bank did
not collect information described as “an integral part of the ongoing process of crafting
a content policy”, and was unable to comply with its Board of Directors’ requirements
regarding the analysis and reporting of detailed content trend information. As a result of
a review required by the Export-Import Bank Reauthorization Act of 2012, Ex-Im Bank is
considering additional changes to its content policy.


To provide reasonable assurance that content requirements are met and as Ex-Im Bank
considers changes to its content policy, it should (1) implement procedures to verify
exporter self-certifications for a representative sample of transactions each fiscal year;
(2) resolve with the Board of Directors the outstanding requirement to provide annual
reports based on content reports and foreign content review procedures; and (3) establish
mechanisms to obtain specific, measurable, and reliable data to analyze the impact of any
content-related procedural changes approved by the Board of Directors by the end of 2013.
Management concurred with the recommendations, which will be closed upon completion
and verification of corrective action.




                                                                   Office of Inspector General | Export-Import Bank of the United States     15
                  Office of Audits



                                     Audit of Export-Import Bank of the Unites States Fiscal Year 2013 Financial Statements
                                     (OIG-AR-14-02, December 13, 2013)
                                     www.exim.gov/oig/upload/Final-Report-FY-2013-Audit-of-Ex-Im-Bank-Financial-Statements-WEB.pdf

                                     An independent public accountant (IPA), working under OIG supervision, conducted an
                                     audit of Ex-Im Bank’s financial statements for FY 2013. The IPA issued an unqualified
                                     opinion on Ex-Im Bank’s financial statements. The IPA management did not find any
                                     reportable noncompliance with laws and regulations and did not identify any deficiencies in
                                     internal control considered to be significant deficiencies or material weaknesses. However,
                                     during the audit, the IPA and Ex-Im Bank noted several deficiencies related to Ex-Im Bank’s
                                     internal control over financial reporting to include one deficiency of approximately $495
                                     million. The deficiencies and recommendations to address them are as follows.


                                     Incorrect maturity dates of working capital guarantee transactions. Ex-Im Bank identified
                                     that maturity dates for some of the working capital guarantee transactions authorized
                                     during FY 2012 and 2013 were inaccurate. The IPA identified 122 working capital
                                     guarantee transactions authorized during FY 2012 as inaccurate. For FY 2013 transactions,
                                     management made corrections prior to audit testing. The IPA found no exceptions for FY
                                     2013 transactions after corrections made by management.


                                     The incorrect working capital guarantee maturity dates resulted in exclusions of some
                                     working capital guarantees from Ex-Im Bank’s 2012 portfolio. This resulted in an
                                     understatement of 2012 working capital guarantees exposure and the allowance for
                                     working capital guarantees of approximately $495 million (0.5 percent of the FY 2012
                                     total portfolio exposure) and $2.9 million (0.2 percent of FY 2012 loan guarantee liability),
                                     respectively. Ex-Im Bank did not correct the 2012 financial statements as they were
                                     considered to be immaterial by Ex-Im Bank and the IPA.


                                     The IPA recommended that Ex-Im Bank enhance the review process of the working capital
                                     guarantee information entered by staff members. Additionally, management should
                                     communicate accounting policy and procedures regarding working capital transactions to
                                     staff members by creating a desk procedure that would effectively communicate policy and
                                     procedures to new staff members. Management agreed with the recommendations.


                                     Incorrect late interest calculation. The IPA identified that late interest on administrative
                                     invoices was incorrectly calculated due to inaccurate invoice received dates, lack of time
                                     stamp on invoices received, and inconsistencies in selecting appropriate invoice received
                                     dates in the event that a proper time stamp was missing.




16   Office of Inspector General | Export-Import Bank of the United States
Incorrect late interest calculations could result in interest expenses related to late payment
being understated by approximately $12,000 as of September 30, 2013. Ex-Im Bank
implemented a plan to ensure proper time stamp and consistent invoice received dates as
of September 30, 2013.


Inaccurate subsidy re-estimates journal entries. During the testing of the subsidy re-estimate
journal entry, the following errors were noted by the IPA:
  •   Ex-Im Bank identified that the FY 2013 subsidy re-estimate journal entry was incorrectly
      recorded, specifically; the guarantee provision was incorrectly recorded as an insurance
      provision.
  •   We identified that the subsidies for guarantee and insurance transactions were
      correctly calculated. However, the subsidies for the cohort year 2012 for insurance and
      guarantee transactions were not included in the subsidy re-estimate journal entry and,
      therefore, were not recorded.


The IPA found that the subsidy re-estimate spreadsheet used to calculate the total subsidies
had an incorrect formula, which was not detected upon review. Additionally, the subsidy for
guarantees was incorrectly recorded as subsidy for insurance due to human error.


The result of inaccurate subsidy re-estimate journal entries was that the downward and
upward subsidies were understated by approximately $80 and $10 million, respectively,
at September 30, 2013. Ineffective review of the journal entries prior to posting could
potentially cause an incorrect subsidy re-estimate journal entry and therefore an inaccurate
subsidy recorded in the financial statements.


We recommend that a more comprehensive review of the subsidy re-estimate spreadsheet,
as well as the journal entry, be performed to detect any material misstatements in a timely
manner. Management agreed with the recommendation and Ex-Im Bank recorded
correcting journal entries to correct the errors as of September 30, 2013.


Incorrect interest rate used in the calculation of the subsidy re-estimate. During the testing
of the FY 2013 subsidy re-estimate, the IPA identified that incorrect interest rates for
medium- and long-term guarantees were utilized in the subsidy macro-input table.


The result of using an incorrect interest rate in the calculation of the subsidy re-estimate
was that the total provision was misstated by approximately $22 million. Ex-Im Bank made
corrections to the interest rate in the subsidy macro-input table and recalculated the subsidy
for FY 2013. Accordingly, Ex-Im Bank recorded an adjustment to accurately reflect the
provisions at September 30, 2013.




                                                                  Office of Inspector General | Export-Import Bank of the United States   17
                  Office of Audits



                                      We recommended that Ex-Im Bank perform a more comprehensive review of the inputs
                                      used in the subsidy macro-input table prior to performing the calculation of the subsidy
                                      re-estimate. Management agreed with the recommendation.


                                      Inappropriate evidence or inappropriate assignment of transactions for risk rating. During
                                      the testing of risk rating, the IPA identified inaccurate assignment of transactions within the
                                      Portfolio Monitoring and Control Group’s non-core transactions and short-term single buyer
                                      insurance transactions.


                                      The IPA found that because of the miscommunication within the monitoring division,
                                      the following items were noted:
                                         •   Five short-term single buyer insurance transactions were evaluated as private instead
                                             of non-sovereign transactions.
                                         •   Due to miscommunication, one medium-term guarantee was not assigned to an
                                             appropriate monitoring division. Therefore, the budget cost/exposure fee levels (BCL)
                                             for the borrower was not properly evaluated.


                                      Allocating an inaccurate BCL rating to a borrower could result in a misstatement in the
                                      subsidy re-estimate. Ex-Im Bank reviewed the transactions identified by the IPA and
                                      concluded that the BCL rating was appropriate despite the incorrect allocation. We
                                      recommended Ex-Im Bank perform a review of transactions in the portfolio, as a part of
                                      the annual risk rating process, to ensure that they are assigned to appropriate monitoring
                                      divisions. Management agreed with the recommendation.


                                      User access rights review. The IPA inspected the documentation for the January 2013
                                      annual access rights review and noted that one user, requested to be removed from access
                                      by management, maintained access to EXIM Online as of August 1, 2013.


                                      While Ex-Im Bank remediated the user access exception, we recommend that Ex-Im Bank
                                      continue to focus on the execution of access changes in relation to the annual access
                                      review and perform a confirmation process after the annual access review to ensure that all
                                      required changes were completed according to the access request. This control assists in the
                                      overall effectiveness of Ex-Im Bank’s process for user account administration. Management
                                      agreed with the recommendation.


                                      OIG issued a summary of the IPA’s findings and recommendations and management’s
                                      responses in the report Fiscal Year 2013 Financial Statement Audit—Management Letter;
                                      OIG-AR-14-04; March 21, 2014. See: www.exim.gov/oig/upload/OIG-AR-14-04-Financial­
                                      Statement-Audit-Mgmt-Letter.




18   Office of Inspector General | Export-Import Bank of the United States
Fiscal Year 2013 Information Security Program and Practices Audit
(OIG-AR-14-03, March 26, 2014)
www.exim.gov/oig/upload/Final-FISMA-OIG-AR-14-03_Redacted-508.pdf

The Federal Information Security Management Act of 2002 (FISMA) requires agencies to
develop, document, and implement agency-wide information security programs to protect
their information and information systems. FISMA also requires agencies to undergo an
annual independent evaluation of their information security programs and practices, as
well as an assessment of their compliance with FISMA. To fulfill its FISMA responsibilities,
the OIG contracted with an IPA for an independent evaluation of Ex-Im Bank’s information
security program and practices and its overall compliance with FISMA requirements.


The IPA determined that overall Ex-Im Bank continues to improve and strengthen its
information security program and is addressing the challenges in each of the areas that
the Office of Management and Budget identified for the FY 2013 FISMA review. However,
Ex-Im Bank is not compliant with all FISMA requirements. The report contains six
recommendations for corrective action. Management concurred with the recommendations
and we consider management’s proposed actions to be responsive.


Because the report addresses issues associated with information security at Ex-Im Bank,
the OIG did not make the complete audit report publicly available; however, a summary is
posted on the OIG website.



Ongoing Audits
Audit of Export-Import Bank’s controls over sponsored travel
Under certain circumstances, agencies and their employees may accept gifts of official
travel and related expenses from non-Federal sources (referred to as sponsored travel).
Specifically, 31 U.S.C. 1353 and its implementing regulation, the Federal Travel Regulation,
permit executive branch agencies to accept payments of “travel, subsistence, and related
expenses” from non-Federal sources for employee attendance at conferences, seminars,
and speaking engagements, but not events required to carry out agencies’ statutory
functions. In addition to this government-wide authority, the Export-Import Bank Act of
1945, as amended, enables Ex-Im Bank to accept reimbursement for travel and subsistence
expenses incurred as a result of employee attendance at meetings or similar events that
are directly related to the mission of Ex-Im Bank. The authority to accept transactional
travel was added to Ex-Im Bank’s organic statute by Public Law 101-240 so that Ex-Im
Bank could “be more aggressive in promoting its Export programs” given its “severely
limited” annual restrictions on its overall administrative expenses.1 However, Ex-Im Bank’s
authority to accept sponsored conference and transactional travel is not unlimited and



1
    H.R. Rep. No. 101-271, at 23 (1989)

                                                                    Office of Inspector General | Export-Import Bank of the United States   19
                         Office of Audits



                                          must comply with ethics and conflict-of-interest regulations. Specifically, in approving and
                                          accepting sponsored travel, Ex-Im Bank management must prevent abuse and ensure that
                                          Ex-Im Bank’s interest in employee attendance at sponsored events and meetings outweighs
                                          concern that acceptance of gifts of official travel from non-Federal sources may cause a
                                          reasonable person to question the integrity of Ex-Im Bank’s programs and operations. In
                                          addition, when sponsors agree to reimburse Ex-Im Bank for certain travel expenses, Ex-Im
                                          Bank must accurately and timely bill sponsors and collect reimbursements to ensure that
                                          limited administrative funds are not unnecessarily or inefficiently expended.


                                          The overall objective of the audit is to evaluate Ex-Im Bank’s approval, acceptance, and
                                          collection of payments from non-Federal sources for travel and related expenses. The OIG
     In certain circumstances,            will also determine whether Ex-Im Bank has complied with Federal and agency regulations
     Export-Import Bank staff may         pertaining to sponsored travel, and follow-up on corrective actions implemented as a result
     accept gifts of official travel      of our previous audit report Sponsored Transactional Travel (OIG-AR-10-04, June 4, 2010).2
     and related expenses from
                                          Audit work commenced in April 2013, but was temporarily suspended in June 2013 due to
     non-Federal sources.
                                          staffing constraints. Fieldwork resumed in September 2013 and the OIG anticipates issuing
                                          an audit report in April 2014.


                                          Audit of improper payments reporting
                                          Improper payments are payments made in the wrong amount, to the wrong entity, or for
                                          the wrong reason. They can result from processing errors, a lack of information, or fraud.
                                          In accordance with the Improper Payments Information Act of 2002 (IPIA), as amended
                                          by the Improper Payments Elimination and Recovery Act of 2010 (IPERA), Inspectors
                                          General are required to annually review their agency’s compliance with improper payments
                                          legislation and evaluate agency efforts to assess, report, and reduce improper payments.
                                          We are reviewing Ex-Im Bank’s improper payments assessment and reporting activities for
                                          FY 2012. We plan to issue this report on April 15, 2014.




                                           2
                                               Office of Inspector General, Export-Import Bank of the United States; Sponsored Transactional Travel; OIG­
                                               AR-10-04; June 4, 2010. See: www.exim.gov/oig/loader.cfm?csModule=security/getfile&pageid=13592

20        Office of Inspector General | Export-Import Bank of the United States
Office of Inspections
and Evaluations




                        Office of Inspector General | Export-Import Bank of the United States   23
                  Office of Inspections and Evaluations



                                     The Office of Inspections and Evaluations (OIE) conducts independent inspections and
                                     policy evaluations to assess the efficiency and effectiveness of Ex-Im Bank’s programs,
                                     operations, and transactions. All OIE assignments are performed in accordance with Council
                                     of Inspectors General on Integrity and Efficiency guidelines and standards including the
                                     2010 “Quality Standards for Inspections and Evaluations”. OIE works in tandem with the
                                     Office of Audit and the Office of Investigations whenever appropriate. Moreover, OIE refers
                                     irregularities and other suspicious conduct detected during its reviews to the Office of
                                     Investigations for investigative consideration.


                                     During the first half of FY 2014, OIE continued its work on two transaction inspections: Punj
                                     Lloyd Solar Power, Ltd and the Liquefied Natural Gas Project in Papua New Guinea. In addition,
                                     OIE continued working on its evaluation of Ex-Im Bank’s Economic Impact Procedures.


                                     A brief synopsis of these assignments appears below.



                                     Ongoing inspection assignments
                                     OIE identified several inspection candidates for FY 2014 and is currently finalizing its review
                                     of two Ex-Im Bank structured financings. OIE expects to release the results of its inspections
                                     in FY 2014. A brief description of each financing appears below.

                                     1 Punj Lloyd Solar Power, Ltd. (Punj Lloyd)
                                         The Punj Lloyd solar project involves the development of a five-megawatt solar
                                         photovoltaic (PV) power plant located on a 62.5-acre site near the village of Bap,
                                         approximately 90 miles from the city of Jodhpur in the state of Rajasthan, India. The
                                         project uses PV solar modules manufactured and exported by Abound Solar, Inc.,
                                         formerly of Loveland, Colorado.


                                         Borrower Punj Lloyd is a wholly-owned subsidiary of Punj Lloyd Infrastructure, Ltd., an
                                         infrastructure development company incorporated in 2007 and wholly-owned subsidiary
                                         of Punj Lloyd Limited, an international engineering and construction firm headquartered
                                         in Gurgaon, India. The total project cost for developing the solar power plant is
                                         estimated at $16.6 million, financed by sponsor equity of approximately $7.5 million and
                                         debt financing of $9.1 million.


                                         OIE’s inspection seeks to determine the level of due diligence, risk assessment, and
                                         portfolio monitoring performed by Ex-Im Bank in this transaction given the difficult
                                         nature of the industry, allegations against the exporter, the implementation of the fast
                                         track credit process, and how the identified risks were mitigated. Further, OIE will make




24   Office of Inspector General | Export-Import Bank of the United States
      appropriate recommendations in the interest of supporting Ex-Im Bank’s ongoing,

      proactive initiatives to improve efficiency and banking practices.




2 Papua New Guinea—Liquefied Natural Gas Project (PNG LNG)
      PNG LNG is a vertically integrated liquefied natural gas project in Papua New Guinea,
      consisting of gas fields in the highlands, an on-shore and off-shore pipeline of over
      400 miles, a gas liquefaction plant on the coast, marine export facilities, and in-country
      infrastructure. Construction started in 2010 and is scheduled for completion in 2015.
      The current, estimated construction cost is $19.4 billion. Ex-Im Bank has commitments                              Communicating the effect

      totaling $3 billion, including $579 million for local costs.                                                       of percentage-based targets
                                                                                                                         on Ex-Im Bank’s resources

      The project is an unincorporated joint venture among subsidiaries of Exxon Mobil                                   and ability to achieve its goals
                                                                                                                         to external stakeholders is
      Corporation, Oil Search Limited (a Papua New Guinea independent oil company),
                                                                                                                         consistent with federal internal
      Santos Limited (an Australia company), Japan Papua New Guinea Petroleum Company
                                                                                                                         control standards.
      (a subsidiary of Nippon Oil and other Japanese Oil companies) and certain companies
      wholly owned by the independent state of Papua New Guinea. OIE’s inspection seeks
      to determine the level of due diligence, policy compliance, risk assessment, risk mitigation,
      and portfolio monitoring performed by Ex-Im Bank, given the transaction’s size, complexity,
      and 17.5-year term, which is on a non-recourse basis once the project is in commercial
      operation. OIE will make appropriate recommendations in support of Ex-Im Bank’s
      ongoing, proactive initiatives to improve efficiency, integrity, and banking practices.



Other ongoing assignments
Evaluation of Ex-Im Bank’s economic impact procedures
Ex-Im Bank’s economic impact procedures are intended to provide a methodological
framework to assure that Ex-Im Bank’s projects do not have an adverse impact on U.S.
industry. First introduced to Ex-Im Bank’s Charter in 1968, the procedures have been the
subject of Congressional scrutiny and public interest. In prior years, both the OIG and the
GAO have identified opportunities for improvement in Ex-Im Bank’s economic impact
procedures.3 The most recent version of the procedures was approved by Ex-Im Bank’s
Board of Directors on November 19, 2012, and took effect April 1, 2013. This evaluation
complements OIG’s prior report by analyzing the new procedures in the context of OIG’s
prior findings and recommendations. OIE expects to publish the results of its evaluation
during the next semi-annual period.



3
     Office of the Inspector General, Export-Import Bank of the United States; Evaluation Report Relating
    to Economic Impact Procedures; OIG-EV-10-03; September 17, 2010. See: www.exim.gov/oig/loader.
    cfm?csModule=security/getfile&pageid=13549

    U. S. Government Accountability Office; Export-Import Bank: Improvements Needed in Assessment of
    Economic Impact; GAO-07-1071; September 2007. See: www.gao.gov/products/GAO-07-1071.

                                                                                Office of Inspector General | Export-Import Bank of the United States       25
                  Office of Inspections and Evaluations



                                     Follow-up report on Ex-Im Bank loss reserve
                                     and portfolio risk management practices
                                     In separate reports, both OIG and GAO have identified opportunities for Ex-Im Bank to
                                     strengthen its loss reserve and risk management practices. OIE’s follow-up report seeks
                                     to assess Ex-Im Bank’s progress to date on the various recommendations put forth in the
                                     two reports.



                                     Other activities
                                     The OIE participates with Council of Inspectors General on Integrity and Efficiency’s
                                     Inspection and Evaluation Committee, which leads the development of protocols for
                                     reviewing management issues that cut across departments and agencies, promotes the
                                     use of advanced program-evaluation techniques, and fosters awareness of evaluation
                                     and inspection practices in OIGs. Additionally, during this period, OIE participated in
                                     several discussions with representatives from other export credit agencies and multilateral
                                     institutions to discuss risk management and integrity due diligence best practices.


                                     Finally, we are pleased to announce the hire of Mr. Daniel Wong as Inspector. Mr. Wong
                                     joined Ex-Im Bank OIG with over five years of experience with several financial institutions.




26   Office of Inspector General | Export-Import Bank of the United States
Office of Investigations

                  Office of Investigations



                                     Summary of accomplishments
                                     The Office of Investigations (OI) conducts and coordinates investigations relating to alleged
                                     or suspected violations of laws, rules, or regulations occurring in Ex-Im Bank programs and
                                     operations. The subjects of OI investigations can be program participants, contractors,
                                     Ex-Im Bank management, or employees. Special Agents in OI are Federal Criminal
                                     Investigators (job series 1811). Investigations that uncover violations of Federal law, rules,
                                     or regulations may result in criminal, civil prosecution, or administrative sanctions.


                                     During this reporting period, OI achieved several milestones and accomplishments towards
                                     meeting mission objectives of investigating and preventing trade finance and export credit
                                     insurance fraud impacting Ex-Im Bank. These actions include:
                                         •   Obtained three criminal judgments resulting in 135 months’ imprisonment, 108 months’
                                             probation, and approximately $42 million in criminal restitution, forfeiture, and special
                                             assessments;
                                         •   Obtained three administrative employee actions stemming from referrals of active
                                             investigative information to the Ex-Im Bank Office of General Counsel (OGC) resulting
                                             in Ex-Im Bank management recommending the dismissal of two employees and a letter
                                             of reprimand for one employee;
                                         •   Obtained one plea agreement entered in court by a subject pursuant to ongoing

                                             investigative matters;

                                         •   Provided 38 reports of investigative information to the Ex-Im Bank OGC concerning
                                             potential funds at risk to support enhanced due diligence efforts in approving,
                                             processing, and monitoring export credit loan guarantees and insurance policies;
                                         •   Referred 11 investigative matters to the Department of Justice for prosecutive decision,
                                             and;
                                         •   Successfully closed 13 investigations after concluding all remaining actions and
                                             prosecutive results in those cases, and additionally closed further investigative review of
                                             approximately $47.5 million in suspected claims, which had been under investigation.




30   Office of Inspector General | Export-Import Bank of the United States
Summary of Investigations
OI evaluates all reports of possible fraud or illegality affecting Ex-Im Bank programs
and activities. Such reports are received from a variety of sources including Ex-Im Bank
employees, Ex-Im Bank Office of General Counsel, participants in Ex-Im Bank transactions,
other government agencies, and the Ex-Im Bank OIG Hotline. Evaluations that identify
reasonable indications of possible fraud or illegality result in an investigation. These
investigations are summarized in the table below.


Activity                                      Investigations            Claims*               Claim Amounts
Open as of September 30, 2013                       37                    361                 $245,929,189
Opened during period                                12                     10                  $35,455,262
Closed during period                               (13)                   (18)                 $47,554,597
Open as of March 31, 2014                           36                    353                 $233,829,854

*The number and amount of claims paid subject to investigation. Not all investigations involve claims paid by
Ex-Im Bank. Not all claims opened or closed in the period are related to cases opened or closed in the period,
but may be related to other active investigations. The referral of a claim to the OIG for investigation does not
establish the existence of fraud and not all claims included in a case under investigation are necessarily fraudulent
until proven so by evidence developed in the investigation. The number of claims may vary during the course of
an investigation as facts and findings develop.




Summary of Investigative Results
The Office of Investigations obtained the following actions during this reporting period.


Description                                               OIG             Joint activities*            Total
Matters Referred to the
                                                           6                      5                     11
Department of Justice
Pleas Entered                                              1                      0                     1
Criminal Judgments                                         2                      1                     3
Prison Time (months)                                      99                     36                    135
Probation (months)                                        72                     36                    108
Court Ordered Fines,
                                                   $26,523,084            $15,654,410            $42,177,494
Restitution, and Forfeiture
Administrative Employee Actions**                          1                      2                      3

* Joint investigations with other law enforcement agencies.

** Administrative employee actions are responses by Ex-Im Bank to dismiss or discipline Ex-Im Bank employees
   based upon investigative findings.




                                                                                 Office of Inspector General | Export-Import Bank of the United States   31
                  Office of Investigations



                                     Investigations
                                     Export-Import Bank employee integrity
                                     The Office of Investigations conducts investigations involving allegations of criminal activity
                                     or serious misconduct by Ex-Im Bank employees that could threaten its reputation, the
                                     quality or validity of executive decisions, the security of personnel or business information
                                     entrusted to Ex-Im Bank, or result in financial loss.


                                     Successful investigative efforts within this area during the period include:
                                         OI conducted two separate investigations involving employee misconduct. OI shared
                                         investigative results with Ex-Im Bank OGC, which resulted in Ex-Im Bank’s management
                                         recommending the dismissal of two employees in one of the investigations and a letter
                                         of reprimand for one employee in another investigation. The investigation involving the
                                         proposed employee terminations are still active and ongoing, while the investigation
                                         involving the employee letter of reprimand was closed during the reporting period.


                                     Export Credit Insurance & Loan Guarantee Programs
                                     One of Ex-Im Bank’s key programs—the export credit insurance program—has been
                                     particularly susceptible to fraud schemes by foreign borrowers, U.S. based exporters, and
                                     other transaction participants. This program accounts for several investigations currently
                                     underway. While there are several different programs in Ex-Im Bank, criminal activity
                                     exploits certain processes within the programs in order to induce Ex-Im Bank to approve
                                     insurance or guaranteed coverage.


                                     Export Credit Insurance Program
                                     This program offers protection in the form of several different insurance policy types to U.S.
                                     exporters and their lenders against non-payment by foreign buyers due to commercial and
                                     political risks. Export credit insurance allows exporters to increase export sales by limiting
                                     international repayment risk, offering credit to international buyers, and enabling exporters
                                     to access working capital funds. One fraudulent scheme to exploit this program involves the
                                     falsification of shipping records to convince Ex-Im Bank that the described goods have been
                                     shipped when in fact they have not.


                                     Successful investigative efforts within the export credit insurance program during the
                                     reporting period include the reports noted below.

                                     Miami business owner extradited from Argentina and sentenced
                                     On October 3, 2013, Jose L. Quijano formerly of Miami, Florida, was extradited from Argentina
                                     to the United States. Quijano fled to Argentina on June 7, 2011, prior to sentencing.




32   Office of Inspector General | Export-Import Bank of the United States
OIG agents shared intelligence with INTERPOL and Department of State, Diplomatic Security
Service agents and they coordinated with Argentine Police, who arrested Quijano in Buenos
Aires, Argentina, on December 20, 2011.


Quijano was sentenced in absentia on June 27, 2011, by U.S. District Judge Adalberto J.                    In this reporting period, OIG
                                                                                                           investigative efforts in the
Jordan in the Southern District of Florida to 46 months in prison, followed by 36 months of
                                                                                                           export credit insurance program
supervised release, and was ordered to pay $956,251 in restitution. Quijano pleaded guilty
                                                                                                           achieved the following results:
on February 9, 2011, to conspiracy to commit wire fraud in connection with a scheme to
                                                                                                           • One extradition
defraud Ex-Im Bank of approximately $956,251.
                                                                                                           • 135 months in prison

                                                                                                           • 108 months of supervised
According to court documents, Quijano was the owner of Gangaland, USA LLC, an
                                                                                                             release
electronics exporting company located in Miami that purported to be in the business                        • $42,177,494 in criminal fines,
of purchasing and exporting electronic and computer parts to foreign buyers in South                         forfeiture, and restitution
America. Quijano admitted that he and others conspired to defraud the Ex-Im Bank by
devising a scheme to obtain money and property by false and fraudulent pretenses.
According to court records, Quijano and others obtained loans guaranteed by the Ex-Im
Bank and misappropriated the loan proceeds for their own use and benefit. From 2008
through 2010, Quijano, through Gangaland, acted as an exporter in 96 loan transactions
insured by the Ex-Im Bank and received approximately $3,637,806 in proceeds. Quijano
admitted that he and others falsified financial statements, waybills, purchase orders, and
bills of lading to falsely represent to various lending banks, including Ex-Im Bank, that
purchases and the exporting of U.S. goods were for buyers in South America. According to
court records, all of the loans involving Gangaland were fraudulent and no U.S. goods of
any kind were shipped to South American buyers. As a result of the fraud, the Gangaland
loans went into default, causing the Ex-Im Bank to pay claims losses to the lending banks in
the amount of $902,450.


This case was prosecuted by the Department of Justice, Criminal Division, Fraud Section with
the assistance of the United States Attorney’s Office for the Southern District of Florida. The
case was investigated by Ex-Im Bank OIG. Significant assistance was provided to this fugitive
investigation by the Department of Justice, Office of International Affairs; the Department of
State, Diplomatic Security Service; INTERPOL; and the United States Marshals Service.

Boat manufacturer sentenced
On January 23, 2014, Emilio A. Michel of Winter Haven, Florida, was sentenced to one year
and one day incarceration by U.S. District Judge Ursula Ungaro in the Southern District of
Florida. In addition, Michel was ordered to pay $355,652 in restitution, $680,449 in criminal
forfeiture, and serve 36 months of supervised release. Michel had previously pleaded guilty
on November 8, 2013 to criminal charges of two counts of conspiracy to commit wire fraud
and wire fraud.



                                                                  Office of Inspector General | Export-Import Bank of the United States       33
                  Office of Investigations



                                     According to court records, Michel, a naturalized U.S. citizen born in Cuba, owned a small
                                     boat manufacturing business in Winter Haven known as Sea Star Boat Corporation (Sea
                                     Star) that ostensibly sold and exported small boats to buyers in foreign countries. In January
                                     2009, Ex-Im Bank approved an insurance policy for Michel and Sea Star to cover the risk
                                     of non-payment by foreign buyers of U.S.-manufactured boats. Under an “Enhanced
                                     Assignment of Policy Proceeds”, Michel and Sea Star then assigned the proceeds of the
                                     insurance policies to a lending bank in Miami to obtain financing for the purchase and
                                     export of these goods. Under an enhanced assignment of the insurance proceeds, Ex-Im
                                     Bank agrees to pay claims to the assignee. Therefore, the insurance policies covered the
                                     lender in the event of a default related to the loan payments by Michel and Sea Star.


                                     According to court records, Michel entered into a conspiracy with others to defraud Ex-Im
                                     Bank and unlawfully enrich themselves by submitting false and fraudulent information to
                                     Ex-Im Bank through the lender to obtain money from the loan and misappropriate the loan
                                     proceeds for their own use and benefit. According to court records, Michel admitted that
                                     he and others prepared and caused to be prepared false loan applications, false financial
                                     statements, false shipping documents, and false invoices representing that Michel, through
                                     Sea Star, had sold and shipped approximately $680,449 worth of goods manufactured
                                     in the U.S. to foreign buyers. In fact, according to court records, Michel had not sold or
                                     shipped any of the goods. Michel defaulted on his loan causing Ex-Im Bank to pay a claim
                                     to the lender on March 17, 2011 in the amount of $355,652.


                                     The Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s Office,
                                     Southern District of Florida prosecuted the case. The case was investigated by Ex-Im Bank OIG.


                                     Loan Guarantee Program
                                     Ex-Im Bank assists exporters by guaranteeing term financing from a commercial lender
                                     to creditworthy international buyers, both private and public sector, for purchases of U.S.
                                     goods and services. Ex-Im Bank’s guarantee of a lender’s loan to an international buyer is
                                     used to finance purchases of U.S. goods and services. Criminals have exploited this program
                                     by submitting false financial statements of foreign borrowers in order to induce Ex-Im Bank
                                     to provide its guarantee coverage for a loan for which they might otherwise be ineligible,
                                     and by submitting false documentation to the guaranteed lender and Ex-Im Bank regarding
                                     the shipment, nature, or quantity of the U.S. goods allegedly being exported.


                                     Successful investigative efforts within the loan guarantee program during the reporting
                                     period include the following:

                                     Mexican citizen sentenced
                                     On October 17, 2013, Manuel Ernesto Ortiz-Barraza of Mexico was sentenced to serve




34   Office of Inspector General | Export-Import Bank of the United States
36 months in prison by U.S. District Judge Kathleen Cardone in the Western District of
Texas, El Paso Division. In addition, Ortiz was ordered to pay $7,172,865 in restitution and
$8,481,245 in criminal forfeiture and serve 36 months supervised release. Judge Cardone
sentenced Ortiz for his role in a scheme to defraud Ex-Im Bank of nearly $7.2 million.


Ortiz-Barraza was charged in an indictment unsealed on October 19, 2011, in the Western
District of Texas with one count of conspiracy to commit wire and bank fraud, three counts
of wire fraud, and one count of bank fraud for his alleged role in a scheme with several
others to defraud Ex-Im Bank.


Based on a provisional arrest warrant, Mexican authorities arrested Ortiz-Barraza in Mexico
on February 13, 2012, and he was extradited to the United States on January 25, 2013.
Ortiz-Barraza pleaded guilty on June 20, 2013, to wire fraud conspiracy and bank fraud.


According to the U.S. indictment and court documents, Ortiz-Barraza and his co-
conspirators allegedly conspired to obtain Ex-Im Bank guaranteed loans through banks
by creating false loan applications, false financial statements, and other documents
purportedly for the purchase and export of U.S. goods into Mexico. Ortiz-Barraza and
his co-conspirators allegedly falsified shipping records to support their claims of doing
legitimate business and did not ship the goods that were guaranteed by Ex-Im Bank. After
the loan proceeds were received, Ortiz-Barraza and his co-conspirators allegedly split the
loan proceeds among themselves. As a result of the alleged fraud, the conspirators’ loans
defaulted, causing Ex-Im Bank to pay claims to lending banks on a loss of over $2.5 million.


The Department of Justice, Criminal Division, Fraud Section and the U.S. Attorney’s
Office, Western District of Texas, El Paso Division prosecuted the case. Homeland
Security Investigations in El Paso, Texas; Internal Revenue Service-Criminal Investigation in
Washington, D.C., the U.S. Postal Inspection Service in Washington, D.C., and Ex-Im Bank
OIG investigated the case. Significant assistance was provided to this fugitive investigation
by the Department of Justice, Office of International Affairs; INTERPOL; the United States
Marshals Service, and the government of Mexico.

El Paso business owner sentenced
On January 28, 2014, Leopoldo Parra of El Paso, Texas, as sentenced to serve 87 months
in prison by U.S. District Judge Kathleen Cardone in the Western District of Texas, El Paso
Division. In addition, Parra was ordered to pay $11,846,923 in restitution, $13,638,060 in
forfeiture, and a $1,500 fine and serve 36 months of supervised release.


Parra, a naturalized United States citizen, pleaded guilty on August 25, 2012, to one count
of conspiracy to commit wire fraud, two counts of wire fraud, and one count of conspiracy



                                                                  Office of Inspector General | Export-Import Bank of the United States   35
                  Office of Investigations



                                     to commit money laundering in connection with a scheme to defraud Ex-Im Bank of
                                     approximately $13.6 million.


                                     According to court documents, Parra was the owner of Poma Tools and Industrial Supplies,
                                     an equipment dealer and exporter located in El Paso, Texas. The court documents state
                                     that Parra and others defrauded Ex-Im Bank by engaging in 18 fraudulent and fictitious
                                     loans purportedly involving Mexican buyers. Parra and his co-conspirators submitted false
                                     documents to the lending bank in Baltimore, Maryland stating that U.S. goods had been
                                     purchased by and shipped to various buyers in Mexico. Through the submission of these
                                     false documents to the lending bank, Parra and his co-conspirators defrauded both the
                                     lending bank and Ex-Im Bank by receiving loan proceeds from the lending bank and using
                                     them for personal gain. Parra retained for his own personal use and benefit, approximately
                                     $809,007. The loans in question were issued by the lending bank and then insured and
                                     guaranteed with medium-term insurance policies from Ex-Im Bank.


                                     The U.S. Department of Justice, Criminal Division, Fraud Section and the U.S. Attorney’s
                                     Office, Western District of Texas, El Paso Division prosecuted the case. The case was
                                     investigated by Ex-Im Bank OIG; Homeland Security Investigations in El Paso, Texas; Internal
                                     Revenue Service-Criminal Investigation in Washington, D.C.; and the U.S. Postal Inspection
                                     Service in Washington, D.C. The Financial Crimes Enforcement Network provided substantial
                                     assistance in this investigation.



                                     Other Investigative Results
                                     Special agents work collaboratively with Ex-lm Bank to help protect funds at risk
                                     To the extent permissible and within the confines and limitations of an investigation, OI
                                     Special Agents work collaboratively to share investigative intelligence with the Ex-Im Bank’s
                                     Office of General Counsel, Credit and Risk Management Division, and Asset Management
                                     Division to help identify potential and suspected fraudulent activity within Ex-Im Bank
                                     transactions and to protect funds at risk.


                                     During this reporting period, OI communicated with Ex-Im Bank management to
                                     enhance the monitoring of several existing transactions and due diligence reviews of
                                     proposed transactions based on developed investigative leads. The OIG shared active law
                                     enforcement intelligence with Ex-Im Bank on several matters concerning suspected criminal
                                     activity by participants involved in active policies or transactions under review.


                                     OI made 38 referrals of investigative information to Ex-Im Bank Office of General Counsel
                                     concerning potential fraud and funds at risk for enhanced due diligence by Ex-Im Bank.




36   Office of Inspector General | Export-Import Bank of the United States
These efforts are part of the OI objective to expeditiously protect funds currently at risk
because they are related to transactions in which fraud is uncovered.


Investigative capabilities are strengthened by memorandums
of understanding and other law enforcement partnerships
During this reporting period, OI further strengthened its availability and use of resources
and investigative support by joining the Export Enforcement Coordination Center (E2C2) as
part of the Export Control Reform Initiative. E2C2, which was created in November 2010
pursuant to Executive Order 13558, coordinates and enhances criminal, administrative, and
related export enforcement activities. E2C2 is a multi-agency center with representation
from eight U.S. governmental departments and 16 federal agencies, including the Export-
Import Bank OIG.


E2C2 serves as a conduit between federal law enforcement agencies and the intelligence
community, and it is the primary point of contact between enforcement authorities and
agencies engaged in export licensing, public outreach, and government-wide statistical
tracking. Through these efforts, E2C2 promotes a more robust whole-of-government
approach to enforcement that ensures inter-agency coordination, promotes multi-agency
collaboration, minimizes the duplication of efforts and strengthens the link between law
enforcement, the intelligence community, and export licensing entities.


On a daily basis, OI shares intelligence with E2C2 member agencies to enhance cooperative
law enforcement endeavors.


Outreach—OIG continues efforts to educate the export and banking communities
on identifying and reporting fraud, waste, and abuse
As part of the OIG’s mission to prevent and detect fraudulent activity, efforts have been
made to meet with and educate stakeholders and other law enforcement partners about
the various risks and fraud scenarios most commonly seen in trade finance and export
credit fraud cases.


On October 10, 2013, OI representatives met with Atradius Insurance staff in Baltimore,
Maryland. OI discussed common fraud scenarios and money laundering patterns often
seen in trade finance fraud investigations, and provided information regarding the role and
responsibility of the OIG in combating fraud, waste, and abuse.


On October 18, 2013, an OI representative spoke at the International Factoring Association’s
Advance Factoring seminar in Las Vegas, Nevada. OI gave a presentation focused on
preventing, detecting, and investigating trade finance fraud schemes and common money
laundering scenarios encountered during parallel Ex-Im fraud investigations.




                                                                  Office of Inspector General | Export-Import Bank of the United States   37
                  Office of Investigations



                                     On December 4, 2013, OI representatives spoke at the Florida International Bankers
                                     Association’s Trade Based Money Laundering seminar in Miami, Florida. OI gave a
                                     presentation focused on preventing, detecting, and investigating trade finance fraud and
                                     money laundering schemes as they relate to trade based money laundering.



                                     Hotline Activity
                                     The Ex-Im Bank OIG maintains a hotline to receive reports of fraud, waste, and abuse in
                                     Ex-Im Bank programs and operations. Hotline reports are evaluated by our investigative
                                     team and, based on the available evidence, may result in the initiation of an investigation,
                                     audit, referral to other law enforcement authorities having jurisdiction, or referral to
                                     management for administrative action.


                                     The OIG received nine hotline reports during the reporting period. Eight were referred for
                                     investigation and one was resolved and closed by the hotline.


                                     Hotline reports can be made by any of the following methods:
                                         •   phone at 1-888-OIG-EXIM (1-888-644-3946);
                                         •   email to IGhotline@exim.gov, or;
                                         •   mail or delivery service to Ex-Im Bank OIG Hotline, Office of Inspector General,

                                             811 Vermont Avenue, NW, Room 138, Washington D.C. 20571.



                                     The OIG will not disclose the identity of a person making a report through the hotline
                                     without their consent unless the IG determines such disclosure is unavoidable during the
                                     course of an investigation.




38   Office of Inspector General | Export-Import Bank of the United States
Appendix A:
Recommendations from
prior reporting periods
This table shows that 62 of 94 total recommendations from 13 reports remain open at the
end of this reporting period. Twenty-seven open recommendations are from reports issued
in 2013, 16 are from 2012. The remaining 19 open recommendations are from reports
issued in 2010 and 2011.


                                                                                                Recommendations                       Latest target
 Report Date     Report Title                                                        Total     Open Closed Unresolved                 closure date
 Last Period
 Audits
 OIG-AR-13-04
                 FY 2012 Information Security Program and Practices Audit               3         3          0             0            11/15/13
 22 Mar 2013
 OIG-AR-13-03
                 Export-Import Bank’s Improper Payments Reporting for FY 2011           5         4          1             0            11/30/13
 14 Mar 2013
 OIG-AR-13-02
                 FY 2012 Financial Statement Management Letter                          8         8          0             0            11/15/13
 23 Jan 2013
 Prior Periods
 Audits
 OIG-AR-13-04                                                                                                                             None
                 FY 2012 Information Security Program and Practices Audit               3         1          2             0
 22 Mar 2013                                                                                                                            Provided
 OIG-AR-13-03
                 Export-Import Bank’s Improper Payments Reporting for FY 2011           5         4          1             0             4/15/14
 14 Mar 2013
 OIG-AR-13-02
                 FY 2012 Financial Statement Management Letter                          8         0          8             0              1/7/14
 23 Jan 2013
 OIG-AR-12-05                                                                                                                             None
                 Audit of Export-Import Bank’s Short-Term Insurance Program            10         0          6             4
 28 Sep 2012                                                                                                                            Provided
 OIG-AR-12-04    Audit of Information Technology Support for Export-Import                                                                None
                                                                                       11         7          4             0
 24 Jan 2012     Bank’s Mission                                                                                                         Provided
 Inspections and Evaluations
 OIG-INS-13-01                                                                                                                            None
                 Inspection Report on Minera y Metalurgica del Boleo S.A.               7         7          0             0
 30 Sep 2013                                                                                                                            Provided
 OIG-INS-12-02
                 Report on Portfolio Risk and Loss Reserve Allocation Policies          7         5          0             2             4/30/14
 27 Sep 2012
 OIG-INS-12-01   Report on Performance Metrics for Operational Efficiency and
                                                                                        8         4          4             0             4/30/14
 27 Mar 2012     Customer Service, Phase 1
 OIG-EV-10-03                                                                                                                             None
                 Evaluation Reporting Relating to Economic Impact Procedures           16        16          0             0
 17 Sep 2010                                                                                                                            Provided
 Other Reports
 OIG-SR-11-01                                                                                                                             None
                 Review of the Export-Import Bank Nigeria Banking Facility              3         3          0             3
 7 Jun 2011                                                                                                                             Provided

                                                                          TOTALS       94        62         26             9




                                                                             Office of Inspector General | Export-Import Bank of the United States    41
Appendix B:

Peer review reporting

This appendix complies with Section 5(a)(14)-(16) of the IG Act of 1978, as amended.


Of the audit function
Under government standards, OIG audit functions must have an external peer review at
least every three years. The next peer review of OIG audit functions will be in 2014.


Of the investigation function
As of June 10, 2011, Ex-Im Bank OIG derives its law enforcement authority from Section
6(e) of the IG Act of 1978, as amended. As such, the OIG is required to undergo an exter­
nal peer review process of our investigative function every three years. The OI peer review is
scheduled for May 19–23, 2014.


Of other OIGs
Ex-Im Bank OIG Office of Audit conducted a peer review of the Commodity Futures
Trading Commission (CFTC). We began a peer review of the audit function of the CFTC in
November 2013. This peer review should be concluded during the next semiannual period.


No peer reviews of investigation divisions of other OIGs are scheduled at this time.
Appendix C:
Inspector General Act
reporting requirements
Inspector General Act
                                   Requirement definition                                            Page
citation
Section 4(a)(2)                    Review of Legislation and Regulations	                                9

Section 5(a)(1)                    Significant Problems, Abuses, and Deficiencies	                     None

Section 5(a)(2)                    Recommendations for Corrective Actions	                           15-19, 26

                                   Prior Significant Audit Recommendations
Section 5(a)(3)	                                                                                         41
                                   Yet to Be Implemented

Section 5(a)(4)                    Matters Referred to Prosecutive Authorities	                          31

Sections 5(a)(5) and 6(b)(2)       Summary of Refusals to Provide Information	                         None

                                   Audit Products Issued Including Total Dollar Values
Section 5(a)(6)	                   of Questioned Costs, Unsupported Costs, and                         None
                                   Recommendations that Funds Be Put to Better Use
                                                                                                       14-19
Section 5(a)(7)	                   Summary of Particularly Significant Reports
                                                                                                       24-26
                                   Total Number of Reports and Total Dollar Value
Section 5(a)(8)	                                                                                       None
                                   for Audits with Questioned Costs

                                   Total Number of Reports and Total Dollar Value for Audits
Section 5(a)(9)	                                                                                       None
                                   with Recommendations that Funds Be Put to Better Use

                                   Summary of Prior Audit Products
Section 5(a)(10)	                                                                                        41
                                   for which No Management Decision Has Been Made

                                   Description and Explanation of
Section 5(a)(11)	                                                                                      None
                                   Significant Revised Management Decisions

                                   Significant Management Decisions
Section 5(a)(12)	                                                                                      None
                                   with which the Inspector General Disagreed
                                   Reporting in Accordance with Section 5(b)
Section 5(a)(13)	                  of the Federal Financial Management Improvement Act                 None
                                   of 1996 Remediation Plan
Sections 5(a)(14), (15) and (16)   Peer Reviews Conducted and Outstanding Recommendations                43




                                                                             Office of Inspector General | Export-Import Bank of the United States   45
How to report fraud, waste, and abuse
The Inspector General Act of 1978 states that the Inspector General (IG) may receive and
investigate complaints or information concerning the possible existence of an activity
constituting a violation of law, rules, or regulations, or mismanagement, gross waste of
funds, abuse of authority or a substantial and specific danger to the public health and
safety. Whether reporting allegations via telephone, mail, or in person, the OIG will not
disclose the identity of persons making a report without their consent unless the IG
determines such disclosure is unavoidable during the course of the investigation. You may
submit your complaint or information by these methods:


In person
    Office of Inspector General

    Export-Import Bank of the U.S.

    811 Vermont Avenue, NW

    Washington, D.C. 20571



Telephone
    1- 888-OIG-EXIM

    (1-888-644-3946)



Mail
    Office of Inspector General Hotline

    Export-Import Bank of the U.S.

    811 Vermont Avenue, NW

    Washington, D.C. 20571



E-mail
    IGhotline@exim.gov




                                                                                            3
OFFICE OF INSPECTOR GENERAL
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, D.C. 20571

Telephone 202.565.3908
Facsimile 202.565.3988

www.exim.gov/oig
